                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    EPA Could Improve
                    Contingency Planning for
                    Oil and Hazardous
                    Substance Response
                    Report No. 13-P-0152                    February 15, 2013




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                                Patrick Gilbride
                                                    Erin Barnes-Weaver
                                                    Mary Anne Strasser
                                                    Stephanie Wake




Abbreviations

ACP              Area Contingency Plan
CERCLA           Comprehensive Environmental Response, Compensation, and Liability Act
CWA              Clean Water Act
EPA              U.S. Environmental Protection Agency
NCP              National Oil and Hazardous Substances Pollution Contingency Plan
NRT              National Response Team
OEM              Office of Emergency Management
OIG              Office of Inspector General
OPA              Oil Pollution Act
OSC              On-Scene Coordinator
OSWER            Office of Solid Waste and Emergency Response
RCP              Regional Contingency Plan
RRT              Regional Response Team
USCG             U.S. Coast Guard


Cover photo:		     August 1, 2010, photo of EPA’s research vessel MudPuppy II on Michigan’s
                   Morrow Lake as part of EPA’s response to the Enbridge oil spill. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                         13-P-0152
                                                                                                February 15, 2013
                        Office of Inspector General


                        At a Glance


Why We Did This Review              EPA Could Improve Contingency Planning for
The National Oil and                Oil and Hazardous Substance Response
Hazardous Substances
Pollution Contingency Plan           What We Found
(NCP) establishes federal roles
for oil spill response and          EPA regions have expanded contingency planning by creating additional
requires area and regional          plans and materials, but regions cannot maintain this large volume of
planning by the U.S.                information with their limited resources. Regions have created subarea
Environmental Protection            contingency plans, geographic response plans and strategies, and various
Agency (EPA) and other              web-based tools. This structure exceeds the three levels of plans
stakeholders. A prior audit on      established in the Oil Pollution Act, which revised the NCP to expand the
the 2010 Deepwater Horizon oil      response system. The NCP requires national planning in the form of an
spill in the Gulf of Mexico noted   NCP, regional planning by each Regional Response Team in the form of
that some contingency plans         Regional Contingency Plans, and area planning by Area Committees in the
were out of date. We initiated      form of Area Contingency Plans. Regions developed additional plan
this review to determine            materials because regional On-Scene Coordinators find them necessary to
whether the contingency             respond to incidents. Some written plans miss some NCP requirements,
planning structure for              contain duplicative information, and are out-of-date. Technological
responding to oil spills and        methods—instead of revising written plans—would enable EPA to maintain
hazardous substance releases        current information needed to efficiently respond to spills.
is effective, and whether plans
are updated to reflect lessons       Recommendations and Planned Agency Corrective Actions
learned from recent major
events and new developments         We recommend that the Assistant Administrator for Solid Waste and
or industry trends.                 Emergency Response (1) issue guidance to regions on working with their
                                    Regional Response Teams and Area Committees to use the most efficient
This report addresses the           method available to address NCP requirements, (2) require regions to keep
following EPA Goal or               critical planning information up-to-date and avoid unnecessary duplication,
Cross-Cutting Strategy              (3) work through the office’s National Response Team capacity to develop a
                                    process to regularly incorporate lessons learned from national exercises into
 Cleaning up communities           contingency plan reviews and updates, and (4) assess the resources
  and advancing sustainable         necessary to develop and maintain contingency plans and use the results to
  development                       develop a workforce plan to distribute contingency planning resources. The
                                    Agency agreed with our recommendations and plans to address them by the
                                    end of fiscal year 2013.
For further information, contact
our Office of Congressional and
                                     Noteworthy Achievements
Public Affairs at (202) 566-2391.
                                    EPA regions apply an inclusive approach toward contingency planning by
The full report is at:              working closely with other federal agencies, states, tribes, and industry
www.epa.gov/oig/reports/2013/       representatives. Regions also use technological methods—such as
20130215-13-P-0152.pdf              Geographic Information Systems maps, web-based lists, and electronic
                                    tools—to address some NCP requirements.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL



                                        February 15, 2013

MEMORANDUM

SUBJECT:		 EPA Could Improve Contingency Planning for
           Oil and Hazardous Substance Response
           Report No. 13-P-0152


FROM:          Arthur A. Elkins Jr.

TO:            Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

Your response to the draft report included proposed corrective actions and completion dates. As
such, we are closing this report upon issuance. We have no objections to the further release of
this report to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Patrick Gilbride, Director for Risk and Program Performance, at (303) 312-6969 or
gilbride.patrick@epa.gov.
EPA Could Improve Contingency Planning for                                                                                  13-P-0152
Oil and Hazardous Substance Response



                                  Table of Contents

Chapters
   1    Introduction ........................................................................................................      1



                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                4     

                Scope and Methodology..............................................................................                5


   2    Contingency Planning Could Be More Effective .............................................                                 6



                EPA Regions Expanded Contingency Planning to Include 

                     Additional Plans and Technological Tools .........................................                            6

                EPA Regions Cannot Regularly Update and Maintain All Plans 

                     Given Limited Resources ..................................................................                    8

                EPA Could Use Technology to Streamline Contingency Planning ..............                                        11 

                Conclusion...................................................................................................     12 

                Recommendations ......................................................................................            12 

                Agency Comments and OIG Evaluation ......................................................                         13 


   Status of Recommendations and Potential Monetary Benefits ..............................                                       14





Appendices
   A    NCP Requirements for RCPs and ACPs ..........................................................                             15



   B    Details on Scope and Methodology..................................................................                        16 


   C    Agency Response to the Draft Report .............................................................                         18 


   D    Distribution .........................................................................................................    23 

                                  Chapter 1


                                   Introduction
Purpose
            On August 25, 2011, the U.S. Environmental Protection Agency (EPA) Office of
            Inspector General (OIG) issued the report Revisions Needed to National
            Contingency Plan Based on Deepwater Horizon Oil Spill (Report No. 11-P-0534).
            Our report noted that some contingency plans were out of date at the time of the
            April 2010 Deepwater Horizon oil spill in the Gulf of Mexico and did not reflect
            deepwater drilling trends, lessons learned, and past major oil spills. Additionally,
            the volume of contingency plans made it difficult to determine how plans related
            to one another and whether they contained duplicative information.

            We initiated this review on EPA’s contingency planning for emergency response
            to determine whether the contingency planning structure for responding to oil
            spills and hazardous substance releases is effective, and whether plans are updated
            to reflect lessons learned from recent major events and new
            developments/industry trends, including deepwater drilling.

Background

            Oil Spill Contingency Planning Response Authorities

            There are a number of laws requiring contingency planning for oil and hazardous
            substance spills. The Clean Water Act (CWA) established the basic structure for
            regulating discharges of pollutants into the waters of the United States. CWA
            Section 311 provides EPA and the U.S. Coast Guard (USCG) with the authority
            to establish a program for preventing, preparing for, and responding to spills that
            occur in navigable waters of the United States.

            The CWA (formerly called the Federal Water Pollution Control Act) also
            established requirements for the preparation and publication of the National
            Contingency Plan (National Oil and Hazardous Substances Pollution Contingency
            Plan, or NCP). The NCP serves as the federal government’s blueprint for
            responding to oil spills and hazardous substance releases. The NCP outlines the
            National Response System, which is the mechanism of coordinating response
            actions by all levels of government. The system is composed of the National
            Response Team (NRT), Regional Response Teams (RRTs), On-Scene Coordinators
            (OSCs), Area Committees, state and local governments, and certain vessels and
            facilities. The NCP describes 5 required elements to be included in an RCP and
            10 elements in an ACP. (See appendix A for requirements of RCPs and ACPs.)



13-P-0152                                                                                         1
            Releases of oil and hazardous materials are regulated separately under the Oil
            Pollution Act (OPA) and the Comprehensive Environmental Response,
            Compensation, and Liability Act (CERCLA).

               		 CERCLA, commonly known as Superfund, provided the government with
                   authority to compel persons to clean up releases of hazardous substances
                   for which they are responsible. CERCLA enabled the revision of the NCP
                   to establish procedures and standards for responding to releases of
                   hazardous substances, pollutants, or contaminants.  

               		 The OPA improved the nation’s ability to prevent and respond to oil spills
                   by establishing provisions that expanded the federal government’s ability,
                   and provided monetary and other resources necessary, to respond to oil
                   spills. The OPA provided new requirements for contingency planning both
                   by government and industry. More specifically, it required the
                   establishment of Area Committees comprised of federal, state, and local
                   governments that made up a spill preparedness and planning body. The
                   OPA also required the NCP to be revised to expand the response system
                   into a three-tiered approach providing additional response requirements
                   for the federal government, as well as additional planning requirements for
                   Area Committees and owners and operators of vessels or certain facilities,
                   such as onshore or offshore buildings, equipment, or pipelines. 

            Contingency Planning Requirements

            The NCP requires contingency planning at the national, regional, and area levels.
            There are no specific requirements for updating contingency plans after major
            events. However, the NCP requires that RRTs “meet at least semiannually to
            review response actions carried out during the preceding period, consider changes
            in RCPs, and recommend changes in ACPs.” Additionally, the CWA requires
            Area Committees to periodically update ACPs.

            The NCP also outlines facility and vessel response plans that are required by the
            CWA. Tank facilities, offshore facilities, and onshore facilities that could cause
            substantial harm to the environment with a discharge into navigable waters must
            prepare and submit a plan for responding to a worst case discharge or substantial
            threat of such a discharge. Additionally, the NCP addresses the requirement by
            local governments to prepare local emergency response plans.

            The following figure describes the relationship between the plans.




13-P-0152                                                                                        2
            Figure 1: Relationship of Plans within the NCP




            Source: Figure 4 in Section 300.205 of the NCP.

            As demonstrated in figure 1, there are various levels of plans with many
            stakeholders involved at each level, resulting in a complex, interconnected
            system. The complexity of the contingency planning system necessitates close
            and continued coordination across agencies and among all levels of government.
            Additionally, active and effective participation by states is integral to the effective
            working of this complex National Response System.

            EPA’s Office of Solid Waste and Emergency Response

            EPA’s Office of Solid Waste and Emergency Response (OSWER) provides
            policy, guidance, and direction for the Agency’s emergency response and waste
            programs. Within OSWER, the Office of Emergency Management (OEM) works
            with other federal partners to prevent accidents as well as to maintain response
            capabilities. OEM’s National Planning and Preparedness Division is responsible
            for ensuring national EPA readiness to respond to incidents involving hazardous
            chemicals, oil, and biological/radiological contamination resulting from terrorist
            attacks or accidents. Each of EPA’s 10 regional offices has staff responsible for


13-P-0152                                                                                         3
            oil pollution prevention and emergency response, including OSCs responsible for
            directing responses to incidents. The NCP requires that an EPA representative
            chairs the NRT and co-chairs all RRTs in each of the 10 regional offices and
            Alaska, Oceana, and the Caribbean. Each EPA region we reviewed took a
            different approach to regional contingency planning depending on the unique
            needs of the region. In a 1992 Federal Register Notice, EPA’s Administrator
            designated the 13 individual RRTs as the initial Area Committees. As a result,
            EPA regions have combined their RCPs and ACPs into one planning document.

Noteworthy Achievements
            Many EPA regions have taken steps toward providing planning resources to
            responders using various technological methods. For example:

               		 Region 5 has developed an Inland Sensitivity Atlas for the entire region
                   available on CD-ROMs using Geographic Information Systems
                   technology. These maps identify information such as sensitive species,
                   natural resources areas, shoreline sensitivity, and boat access ramps. Maps
                   incorporate Geographic Information Systems data from local governments
                   and a Region 5 contingency planner said that they cover about 40 square
                   feet of area at a time. Region 5 response staff stated that these maps are
                   one of the first resources they use when responding to an incident.

               		 Region 6 has developed two web-based tools—E-Plan and Response
                   Manager—to collect and provide information needed for contingency
                   planning and response to all agencies.

               		 The Region 10 RRT developed a website that lists all the equipment
                   available within the northwest region. It is updated on an ongoing basis by
                   equipment owners.

            Regional emergency management staff and managers in all regions in our review
            understand that contingency planning is an inclusive process involving many
            stakeholders. A number of planners and OSCs expressed the importance of
            outreach during the planning process to provide an effective response to an
            incident. While all regions do this to an extent, we noted that Region 10 does an
            exceptional job in incorporating states, locals, and one tribe into its planning
            process. For example, federal, state, local, and tribal government representatives
            attend Northwest Area Committee meetings held three times per year.

            OEM has also taken steps to address the complexity of the contingency planning
            structure. OEM is currently in the process of finalizing an “ACP Handbook” as a
            guide and reference for the development of ACPs.




13-P-0152                                                                                        4
Scope and Methodology

            We performed our review from November 2011 to September 2012 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for any findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            We reviewed laws, regulations, and Agency guidance on contingency planning.
            We focused our review on EPA Regions 5, 6, 8, and 10 (including Alaska) given
            their variation in environmental issues, types of emergencies, and corresponding
            responses. We interviewed EPA staff in headquarters and response staff and
            planners in each of these regions to understand their approach to contingency
            planning. We also reviewed a sample of 16 of 38 Subarea Contingency Plans and
            3 of 27 Geographic Response Plans in our regions of review. Finally, we
            reviewed and analyzed various electronic or web-based tools in two of the
            regions.

            Appendix B includes additional details on our scope and methodology.




13-P-0152                                                                                   5
                                  Chapter 2


      Contingency Planning Could Be More Effective
            EPA regions have expanded contingency planning by creating additional plans
            and materials, but regions cannot maintain this large volume of information with
            their limited funding and personnel. Regions have created subarea contingency
            plans, geographic response plans and strategies, and various web-based tools.
            This structure exceeds the three levels of plans established by the OPA, which
            revised the NCP to expand the response system. The NCP requires national
            planning in the form of an NCP, regional planning by each RRT in the form of
            RCPs, and area planning by Area Committees in the form of ACPs. Regions
            developed additional plan materials because regional OSCs find them necessary
            to respond to incidents. Some written plans miss some NCP requirements, contain
            duplicative information, and are out-of-date. Technological methods—instead of
            revising written plans—would enable EPA to maintain current information
            needed to efficiently respond to spills.

EPA Regions Expanded Contingency Planning to Include Additional
Plans and Technological Tools
            The NCP provides the organizational structure and procedures to prepare for and
            respond to discharges of oil and releases of hazardous substances. The NCP
            identifies three levels of contingency planning under the National Response
            System: the NCP, RCPs, and ACPs.

               		 The NRT is responsible for national planning and coordination and
                   recommends revisions to the NCP to improve effectiveness.

               		 RRTs are responsible for regional planning and coordination and must
                   develop an RCP for their region to ensure that during an actual incident
                   the roles and responsibilities of federal, state, local, and other responders
                   are clearly defined.

               		 The federal, state, and local agency members of an Area Committee are
                   responsible for developing an ACP and working with governments and
                   other stakeholders to enhance the contingency planning process.

            EPA’s contingency planning structure has exceeded the three levels of plans
            established by the OPA and outlined by the NCP. Regions 5, 6, 8, 10, and Alaska
            have each taken a different approach to planning. All have one plan that generally
            serves as a guidance document, typically the RCP-ACP for the region. One
            regional response manager described the RCP-ACP as “overarching guidance,”
            and another described it as seen at “the 70,000 foot level.” Four out of the five
            regions in our review also have lower-level operational plans in the form of


13-P-0152                                                                                          6
                 subarea contingency plans or geographic response plans. These operational plans
                 contain more tactical information in addition to the required RCP and ACP
                 elements and are generally the plans used to respond to an incident. Additionally,
                 all regions in our review have some type of electronic system or database that
                 includes information on contacts, equipment, facilities, and/or sensitive areas that
                 are useful during a response. Table 1 below lists the various plans maintained by
                 each region in our review and shows how each has taken a different approach to
                 planning:
 
                 Table 1: Levels and Numbers of Contingency Plans
                                    Region 5         Region 6         Region 8         Region 10         Alaska
                    Regional         Federal         Regional         Region 8         Northwest         Alaska
                                    Region 5        Integrated          RCP              Area          Unified Plan
                                      RCP          Contingency                        Contingency
                                                       Plan -                            Plan
                                                      Interim
                      Area                           One Gulf
                                                    Plan and 5
                                                   USCG ACPs
                    Subarea        19 Subarea                         9 Subarea                        10 Subarea
                                   Contingency                       Contingency                       Contingency
                                      Plans                             Plans                             Plans
                  Geographic                                                               27
                                                                                      Geographic
                                                                                      Response
                                                                                         Plans
                   Web-based          Inland        Response          Electronic      Web Based        Geographic
                                    Sensitivity      Manager         Contact List     Equipment        Response
                                       Atlas        and E-Plan                          List and       Strategies
                                   (geographic                                       Jurisdictional
                                     maps for                                          Boundary
                                      entire                                              Tool
                                     region)
                 Source: EPA OIG summary of contingency plans.


                 Table 1 demonstrates that all regions have an overarching regional plan to meet
                 NCP requirements for an RCP-ACP. Region 10 and Alaska RRTs incorporate
                 additional requirements into their regional plans. The Northwest Area
                 Contingency Plan contains the Region 10 RCP, 2 USCG ACPs, EPA’s Inland
                 ACP, and state plans for Washington and Oregon in one plan for the northwest
                 area. The Alaska Unified Plan combines the RCP and ACP, and includes
                 additional requirements for Alaska’s State Master Plan.1 At the area planning
                 level, the Region 6 RRT maintains the One Gulf Plan, which is an overarching
                 document that contains USCG ACPs and geographic plans for the Gulf region.
                 Regions 5, 8, 10, and Alaska have a number of subarea plans or geographic

1
  The State of Alaska passed legislation in 1980 requiring the Alaska Department of Environmental Conservation
to develop, annually review, and revise, as necessary, the State Oil and Hazardous Substance Contingency Plans
(State Master Plan and Regional Plans).


13-P-0152                                                                                                        7
            response plans that contain more detailed information than regional plans. Finally,
            all regions have developed web-based planning tools that they use for response.

            Regions have expanded their contingency planning structure beyond the three
            requirements under the NCP because they find the additional materials necessary
            and useful for a response. Regional response personnel said that developing these
            materials is often more valuable than a written plan.

               		 Region 5 developed geographic mapping in the form of an Inland
                   Sensitivity Atlas covering the entire region. A number of Region 5 OSCs
                   stated that mapping is the most important resource for response.

               		 Region 6 maintains a contact list because responders believe contact
                   information is one of the most important functions to retain for responding
                   to an incident.

               		 Region 8 developed an OSC phone book for every federal, state, and local
                   representative. A Region 8 OSC stated that contact information on whom
                   to contact during a response is more useful than an actual plan.

               		 Region 10 has 27 geographic response plans that include tactical
                   information intended to assist responders in the first 24 hours of a spill
                   response. A Region 10 OSC stated that if a spill is located in an area with
                   a geographic response plan it is the first resource they review.

               		 Alaska has 10 subarea contingency plans that include geographic
                   resources and strategies that provide a platform for incident response.

EPA Regions Cannot Regularly Update and Maintain All Plans
Given Limited Resources
            Regions have difficulty updating and maintaining the various levels of plans.
            Operational information, such as equipment lists or contact numbers, can change
            frequently while policy and guidance in the overarching RCPs-ACPs rarely
            change. Updating contingency plans, especially RCPs and ACPs, is a time-
            consuming and costly process. Revisions to RCPs-ACPs take time because an
            agency must vet changes through the remaining RRT federal agencies and states
            for review and most RRTs only meet semiannually. It took one region more than
            a year to update its RCP-ACP. Additionally, one regional OSC estimated that the
            cost to maintain and exercise plans for their region was a half-million dollars or
            greater.

            Furthermore, regions have limited planning resources—both funding and
            personnel—to maintain this volume of plans and other tools. Each of EPA’s
            10 regions has OSCs who have primary planning roles in guiding Area
            Committees in the development of ACPs. EPA evaluated the distribution of OSCs



13-P-0152                                                                                        8
            in 2001 following the Agency’s response to terrorist attacks, and the distribution
            may not address the planning requirements OSCs have for oil and hazardous
            substance spills. Regional response and planning staff in all regions we reviewed
            stated that they do not have enough resources to maintain plans, and that they
            spread resources to a variety of competing preparedness activities. Moreover, an
            OEM Director said that EPA never properly funded planning and there are
            continual budget cuts to the oil program. In its response to our draft report,
            OSWER provided additional clarification and noted that “funding for area
            contingency planning is not sufficient to meet its broad based goals and
            coordination needs.” OEM recently established a workgroup to review regional
            OSC allocations.

            The various levels of plans have resulted in a large volume of information that
            regions cannot regularly update and maintain. As a result, RCPs-ACPs miss some
            required NCP elements, and some contingency plans are duplicative and out of
            date.
             
            Missing Requirements in RCPs-ACPs
       
            Appendix A lists required elements for RCPs and ACPs, and we noted the
            following in the five RCPs-ACPs we reviewed:

                		 Three were missing a list of equipment, dispersants, or other mitigating
                    substances and devices, as well as personnel available.

                		 Three did not address areas of economic or environmental importance for
                    the area covered by the RCP-ACP.

                		 Two did not include detailed worst case discharge information in the
                    public version of the plan for security reasons.

                		 Two did not discuss procedures for use of volunteers.

            While required information may be missing in an RCP-ACP, we found that
            regions may include it in a different planning mechanism. For example, while
            three of the five RCPs-ACPs we reviewed did not include detailed information on
            economic and environmental importance as a part of their geographical location,
            this information was available in a subarea contingency plan, geographic response
            plan, or other planning tool. Region 5 includes the environmentally and
            economically sensitive areas in their Inland Sensitivity Atlas that contains maps
            using Geographic Information System technology.
       




13-P-0152                                                                                        9
                  Duplicative Information in Plans 
                   
                  In developing the additional plans and planning materials, regions have duplicated
                  some information. For example:

                       		 Both Region 5 and Region 8 have large sections on relationships to other
                           contingency plans and oil spill response, respectively, repeated in multiple
                           sub-area plans.

                       		 Region 6’s RCP includes the same information as the NCP, such as
                           responsibilities of the NRT, RRTs, OSCs, and Incident and Unified
                           Commands.

                       		 Much of the information in Alaska’s Unified Plan is repetitive from the
                           NCP, such as the listed requirements for ACPs and information on the
                           Unified Command.

                       		 The Region 8 sub-area plans contain contact information but the region
                           also maintains an electronic contact list. 

                  While this provides for some consistency throughout the plans, it may not be
                  necessary to include the same information multiple times; it adds repetitive text to
                  already lengthy planning documents. RCPs-ACPs we reviewed averaged more
                  than 575 pages.

                  Some Plans Are Out-of-Date 
                   
                  With limited resources for updating plans, regions have not updated some plans
                  for many years. Several subarea contingency plans in Regions 5 and 8, as well as
                  Alaska, are outdated, with some not being updated since the late 1990s.

                  In addition, we could not determine whether regions updated plans based on
                  lessons learned. One method to evaluate lessons learned is through Spills of
                  National Significance2 exercises held approximately every 3 years. Table 2
                  summarizes recommendations raised during three Spills of National Significance
                  exercises preceding the 2010 Deepwater Horizon oil spill,3 the nation’s first actual
                  Spill of National Significance.




2
  Spills of National Significance are designated as such due to their severity, size, location, actual or potential impact 

on the public health and welfare or the environment, or the complexity of the necessary response effort. 

3
  In April 2010, the Deepwater Horizon unit exploded and sank in the Gulf of Mexico. The event lasted 87 days and 

spilled an estimated 4.9 million barrels of oil, making it the largest marine oil spill in U.S. history. 



13-P-0152                                                                                                              10
            Table 2: Recommendations from Spills of National Significance Exercises
                Spills of National
              Significance Exercise                 Contingency Plan Recommendations
             1998 – Prince William        ACPs should incorporate local issues and inform the
             Sound and                    regional plan holders and responders of the response
             Western Gulf of Alaska       structure and procedures that will be used.
             2004 – California            The current ACP guidance does not include five elements
                                          related to Endangered Species Act: wildlife, historical
                                          properties, resource identification, fish habitat, and waste
                                          management plans.
             2007 – Great Lakes           Review current status of ACPs and RCPs to ensure they
             and Upper Mississippi/       are being regularly updated. Many participants and
             New Madrid Fault             evaluators observed that response plans were not
                                          immediately available or used in decisions-making.
                                          Informational gaps in response plans were exposed, with
                                          latest updates to such plans often not fully disseminated.
            Source: Lessons learned and after action reports from USCG and EPA.

            Similar issues and recommendations raised from the past three Spills of National
            Significance exercises came to fruition during the Deepwater Horizon spill. For
            example, the National Commission on the BP Deepwater Horizon Oil Spill and
            Offshore Drilling recommended that EPA and USCG bolster state and local
            involvement in oil spill contingency planning and create a mechanism for local
            involvement in spill planning and response. This recommendation is similar to the
            recommendation that arose in the 1998 exercise, yet we could not determine
            whether this recommendation was implemented in plans prior to the 2010
            Deepwater Horizon spill. In its response to our draft report, OSWER noted that
            the 1998 exercise in Alaska represented a totally different scenario (ice) than the
            Deepwater Horizon spill (warm weather/water). While we agree with OSWER
            that some of the recommendations from the Alaska exercise would not translate to
            the Deepwater Horizon spill, the recommendation we noted in Table 2 on
            contingency planning was generic in nature and should be considered nationally.
            If applied, knowledge gained from major spills and these exercises can improve
            preparedness.

EPA Could Use Technology to Streamline Contingency Planning
            Most of the regions we reviewed already have or are in the process of moving
            toward maintaining plan requirements and other response information using
            technological methods, as Region 5 has done with its geographical mapping.
            Other examples include:

                		 Region 6 developed two response tools—E-Plan and Response Manager—
                    to collect and provide information needed for contingency planning and
                    response. These searchable databases collate information from multiple
                    sources. E-Plan focuses on chemicals and Response Manager focuses on
                    facilities and response data.



13-P-0152                                                                                                11
                		 The Region 10 RRT developed a website that lists all equipment available
                    within the northwest region. It is updated on an ongoing basis and
                    maintained by all equipment owners.

            Regions can use these technological methods to keep information more current
            rather than in lengthy, written plans. Additionally, regions can update lower-level,
            tactical information as needed without having to vet changes through the 15 RRT
            federal agencies for approval, as necessary for making changes to an RCP-ACP.

            All regions stated that using technology or web-based planning could help
            streamline the contingency planning process. Furthermore, several regional
            contingency planning personnel said that the process of planning is often more
            important than the plan itself. Planning is inclusive of many players—federal,
            state, and local—and regional OSCs and planners expressed the importance of
            outreach to build relationships with these groups. Using technological methods to
            streamline contingency planning would allow regions to focus on aspects of
            planning and preparedness that are most important to them.
             
Conclusion
             
            EPA expanded contingency plans beyond the three levels of plans established by
            the OPA and outlined by the NCP because regional response staff said additional
            plans are necessary and useful for responding to incidents. However, this has
            resulted in a large volume of information that regions cannot regularly update and
            maintain with their limited resources. EPA could more efficiently address some
            NCP requirements by using technological tools rather than by updating or
            revising written plans. The NCP—most recently revised in 1994—does not
            incorporate improved technological methods for data collection and information
            delivery. The concept of a written plan could become obsolete when better
            technological methods, such as web databases, serve as more efficient methods
            for information delivery. Regions have already taken steps to use technological
            methods and acknowledged that they could make contingency planning more
            efficient. EPA could make it easier for regions to maintain current, complete, and
            accurate information by investing in technology and using the most effective
            information retention and delivery method as a single source to address the NCP
            requirements.

Recommendations
             
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

                1.		 Issue guidance to regions on working with their RRTs and Area
                     Committees to use the most efficient method available to collect, maintain,
                     and deliver RCP/ACP-required elements outlined in the NCP, which may
                     mean using technological tools in lieu of written plans.


13-P-0152                                                                                    12
                2.		 Require regions to keep critical planning information up to date using the
                     most effective method available and avoid unnecessary duplication.

                3.		 Have the Director of OEM work through the office’s NRT capacity to
                     develop a process to regularly incorporate lessons learned from national
                     exercises into contingency plan reviews and updates.

                4.		 Assess the resources, including OSCs, necessary to develop and maintain
                     contingency plans. Use the results of this analysis to develop a workforce
                     plan to distribute contingency planning resources. 

Agency Comments and OIG Evaluation
             
            OSWER generally agreed with our report recommendations and indicated that the
            recommendations parallel efforts OSWER is undertaking. OSWER’s response
            noted two key obstacles that must be overcome before successful implementation
            of planned corrective actions can be achieved: limited involvement by other
            agencies and stakeholders, and limited resources. OSWER’s response noted that, as
            the designated lead for inland areas, EPA must ensure compatibility with USCG-
            led plans for coastal zones. While OSWER’s response stated that “EPA strives to
            ensure high quality contingency plans,” the Agency “is limited in its authority to
            require other agencies to update their critical planning information.

            We made minor revisions to our final report text, as appropriate, based on
            OSWER’s responses, including revising our third recommendation after additional
            correspondence with OSWER. Appendix C contains the Agency’s full responses to
            our draft report and planned actions by OSWER to address our recommendations.
            We believe that OSWER’s planned actions address the intent of our
            recommendations. Our recommendations remain open pending the completion of
            planned corrective actions. 




13-P-0152                                                                                       13
                                        Status of Recommendations and
                                          Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
     Rec.    Page                                                                                              Completion   Claimed    Agreed-To
     No.      No.                         Subject                          Status1      Action Official           Date      Amount      Amount

      1       12 	 Issue guidance to regions on working with their           O       Assistant Administrator    09/30/13
                   RRTs and Area Committees to use the most                           for Solid Waste and
                   efficient method available to collect, maintain, and              Emergency Response
                   deliver RCP/ACP-required elements outlined in the
                   NCP, which may mean using technological tools in
                   lieu of written plans.

      2       13 	 Require regions to keep critical planning                 O       Assistant Administrator    09/30/13
                   information up to date using the most effective                    for Solid Waste and
                   method available and avoid unnecessary                            Emergency Response
                   duplication.

      3       13     Have	 the Director of OEM work through the office’s     O       Assistant Administrator    05/31/13
                     NRT capacity to develop a process to regularly                   for Solid Waste and
                     incorporate lessons learned from national                       Emergency Response
                     exercises into contingency plan reviews and 

                     updates. 

      4       13 	 Assess the resources, including OSCs, necessary           O       Assistant Administrator    09/30/13
                   to develop and maintain contingency plans. Use                     for Solid Waste and
                   the results of this analysis to develop a workforce               Emergency Response
                   plan to distribute contingency planning resources.




1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is unresolved with resolution efforts in progress




13-P-0152                                                                                                                                     14
                                                                                                       Appendix A

                   NCP Requirements for RCPs and ACPs
Table 3: RCP and ACP Requirements
 RCPs shall:
  1.   Include all useful facilities and resources in the region, from government, commercial, academic,
       and other sources.
  2.   Follow the format of the NCP.
  3.   Be coordinated with state emergency response plans, ACPs, and Title III local emergency
       response plans.
  4.   Include lines of demarcation between the inland and coastal zones, as mutually agreed upon by
       USCG and EPA.
  5.   Specify detailed criteria for activation of RRTs.
 ACPs shall:
  1.   Be adequate to remove a worst case discharge and to mitigate or prevent a substantial threat of
       such a discharge from a vessel, offshore facility, or onshore facility operating in or near the area.
  2.   Provide for a well-coordinated response that is integrated and compatible with all appropriate
       response plans of state, local, and non-federal entities, and especially with Title III local
       emergency response plans.
  3.   Include a description of the area covered by the plan, including the areas of special economic or
       environmental importance that might be damaged by a discharge.
  4.   Include a detailed description of the responsibilities of an owner or operator and of federal, state,
       and local agencies in removing a discharge, and in mitigating or preventing a substantial threat of
       a discharge.
  5.   Include a list of equipment, dispersants, or other mitigating substances and devices, and
       personnel available.
  6.   Include a description of procedures to be followed for obtaining an expedited decision regarding
       the use of dispersants.
  7.   Include a detailed description of how the plan is integrated into other ACPs and tank vessel,
       offshore facility, and onshore facility response plans.
  8.   Establish procedures to allow for well organized, worthwhile, and safe use of volunteers.
  9.   Include a Fish and Wildlife and Sensitive Environments Plan in an annex (this annex has
       13 requirements).
 10.   Incorporate technical and scientific information and strategies where effective standard
       techniques are unavailable.
Source: EPA OIG review of NCP.




13-P-0152                                                                                                      15
                                                                                           Appendix B

                     Details on Scope and Methodology
We conducted our review to determine whether the contingency planning structure for responding to oil
spills and hazardous substance releases is effective. By “structure” we considered the various levels of
plans and other planning materials in each region, how they fit together, and how regions utilize them
during responses to incidents.

We chose a sample of EPA regions to focus our review: Regions 5, 6, 8, and 10 (including Alaska).
All of these regions have varying types of environments and potential types of emergencies and
corresponding responses. We chose Region 5 due to the Enbridge pipeline spill in July 2010 near
Marshall, Michigan. The release, estimated at 819,000 gallons, entered Talmadge Creek and flowed into
the Kalamazoo River, a Lake Michigan tributary. We included Region 6 because of the region’s history
of oil spills and our familiarity with Region 6 plans based on our audit of dispersant use in the 2010
Deepwater Horizon oil spill. We chose Region 8 due to the media and political attention of the
TransCanada Keystone pipeline. Region 8 is a contrast to other regions as it is a totally inland zone
where EPA has response authority for the entire region. We included Region 10 because it has extensive
oil production in deepwater in both the Pacific and Arctic Oceans as well as onshore.

To address our objective, we reviewed laws and regulations on contingency planning, including:

      CWA
      CERLCA
      Emergency Planning and Community Right-to-Know Act
      Executive Order 12777, Implementation of Section 311 of the Federal Water Pollution Control
       Act of October 18, 1972, as amended, and the Oil Pollution Act of 1990
      Executive Order 13580, Interagency Working Group on Coordination of Domestic Energy
       Development and Permitting in Alaska
      Executive Order 13547, Stewardship of the Ocean, Our Coasts, and the Great Lakes
      NCP
      OPA
      Spill Prevention Control and Countermeasure Rule

To understand EPA’s approach to contingency planning and how different plans are used in a response,
we conducted interviews with:

      Staff in EPA headquarters, including the OEM Director, OEM Deputy Director, OEM National
       Planning and Preparedness Director, and the Executive Director of the NRT
      RRT co-chairs, planners, and OSCs in Regions 5, 6, 8, 10 and Alaska

To gain perspectives of those outside the Agency, we interviewed contingency planning staff in:

      USCG
      U.S. Department of the Interior
      U.S. Department of Transportation
      States of Alaska, Texas, Utah, and Washington

13-P-0152                                                                                      16
Regions 5, 6, 8, 10, and Alaska all have several levels of contingency plans and other response
resources. We reviewed regional RCPs and ACPs to determine whether they met the requirements under
the NCP. We also reviewed a sample of other contingency plans to determine how regions use various
plans in a response and how they relate to each other. Table 4 shows the various levels of plans in each
region, and red font denotes those we reviewed.

Table 4: Levels and Numbers of Contingency Plans in Regions Reviewed
                      Region 5     Region 6     Region 8       Region 10                        Alaska
    ACPs and          RCP-ACP     RCP-ACP       RCP-ACP     Northwest ACP                    Alaska Unified
      RCPs4                      One Gulf Plan                (RCP-ACP)                     Plan (RCP-ACP)
    Sub-ACPs           19 (7)                      9 (7)                                         10 (2)
   Geographic                                                    27 (3)
 Response Plans
  Electronic or     Geographic    Response      Electronic   Equipment List                  9 Geographic
   Web-Based        Mapping for  Manager and     Contact                                       Response
      Tools          the Region     E-Plan         List                                        Strategies
Source: EPA-OIG summary of contingency plans and response resources.


Prior Audit Coverage

In April 2010, the Deepwater Horizon unit operated by BP exploded and sank in the Gulf of Mexico. The
event lasted 87 days and spilled an estimated 4.9 million barrels of oil, making it the largest marine oil
spill in U.S. history. The OIG reviewed EPA’s role in the use of dispersants during the spill and issued the
report Revisions Needed to National Contingency Plan Based on Deepwater Horizon Oil Spill (Report
No. 11-P-0534) on August 25, 2011. We found that contingency plans were out of date at the time of the
spill and were not updated to reflect deepwater drilling trends, lessons learned, and past major oil spills.
We recommended that OEM work through its NRT capacity to establish a policy for periodic reviews and
updates to contingency plans after considering lessons learned from major national and international oil
spills and/or based on area trends in oil drilling. OSWER agreed with this recommendation. OSWER is
working with the NRT on a framework for plan reviews and updates in light of lessons learned from the
Deepwater Horizon spill, and anticipates completing the framework by March 31, 2013.

Additionally, our office issued the report EPA Should Continue to Improve Its National Emergency
Response Planning (Report No. 08-P-0055) on January 9, 2008. This report evaluated EPA’s Response
Business Plan and found that it did not satisfy EPA’s need for a framework to respond to incidents of
national significance. The report recommended that EPA revise the plan to incorporate the methodology
and assumptions used to develop all personnel and resource estimates, the rational for the selection of
the incidents of national significance, lessons learned from past incidents, logistics of resource
deployment, and risk communications. EPA concurred with the recommendations.




4
 All regions in our review have combined their RCPs and ACPs due to a 1992 Federal Register notice that combined RRTs
and Area Committees.
13-P-0152                                                                                                   17
                                                                                                 Appendix C

                    Agency Response to the Draft Report


                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460
                                                                                               OFFICE OF
                                                                                            SOLID WASTE AND 

                                                                                          EMERGENCY RESPONSE






                                             December 10, 2012

MEMORANDUM

SUBJECT:       Response to OIG’s draft report: “EPA Could Improve Contingency Planning for Oil and
               Hazardous Substance Emergency Response.” Assignment No. OA-FY12-0084

FROM:          Mathy Stanislaus /s/
               Assistant Administrator

TO:    	       Melissa M. Heist
               Assistant Inspector General for Audit

Thank you for the opportunity to respond to the issues and recommendations in the subject audit report.
Following is a summary of the agency’s overall views, along with its views on each of the report
recommendations. The agency agrees with the report recommendations which generally parallel efforts
we have been addressing. Accordingly, we have provided high-level intended corrective actions and
estimated completion dates. For your consideration, we have included a Technical Comments
Attachment to supplement this response.

AGENCY’S OVERALL VIEWS

In response to the OIG’s Draft Report, “EPA Could Improve Contingency Planning for Oil and
Hazardous Substance Emergency Response,” EPA generally agrees with the recommendations in this
report. Area contingency planning is a coordinated effort among twenty or more federal, state, local and
tribal agencies; even prior to the passage of the Oil Pollution Act of 1990 (OPA 90), EPA worked on
area planning, as contingency planning pre-dates OPA 90. EPA works very closely with the U.S. Coast
Guard (USCG), the designated lead agency for planning and response in coastal zones and certain major
inland water bodies. 5 EPA is the designated lead agency for inland areas. 6 EPA-lead inland plans
covering areas adjacent to the coastal zone must ensure compatibility with USCG-lead plans for those

5
  April 24, 1992 Federal Register Notice (57 FR 15198): Designation of Areas and Area Committees Under the 

Oil Pollution Act of 1990.


6
  Through Executive Order 12777 (56 FR 54757; October 22, 1991), the President delegated to EPA the 

responsibility for designating the areas and appointing the committees for the “inland zone”. Under the CWA, 

ACPs are developed by Area Committees under the direction of the FOSC for their area.


13-P-0152                                                                                            18
zones. In this leadership role, EPA strives to ensure high quality contingency plans for each Area
Contingency Plan (ACP), to meet the requirements of OPA 90 and the National Oil and Hazardous
Substances Pollution Contingency Plan (or, “National Contingency Plan” (NCP)). However, with so
many other agencies also active participants and contributors to the planning process, EPA is limited in
its authority to require other agencies to update their critical planning information.

Thus, although we generally agree with the recommendations in this report, and they parallel our efforts,
two key obstacles, (i.e., limited involvement by other agencies and stakeholders and resources) must be
overcome for their successful implementation. New incident response techniques, policy changes,
technological innovations and the work to incorporate lessons learned into area plans makes this a
continuously improving process and completion very difficult. Thus, EPA is dependent on future years’
resources to sustain and expand its current area planning commitments.

In addition, there are three areas of the report that need clarification. The first, on page 4 of the report, in
the background discussion of EPA’s Office of Solid Waste and Emergency Response, the drafters state
that, “[e]ach EPA region we reviewed has taken a different approach to regional contingency planning.”
It is important to emphasize that regions need to take a tailored approach to regional contingency
planning in order to meet the unique needs of their region. Because area plans are focused on specific
geographic domains, with many physical and jurisdictional variables, there can be no “one size fits all”
plan format. EPA’s OSWER/OEM does ensure national consistency to the extent possible.

Secondly, on page 9 of the report under the heading, “EPA Regions Cannot Regularly Update and
Maintain All Plans Given Limited Resources,” the report attributes to “an OEM Director,” that, “EPA
never properly funded planning and there are continual budget cuts to the oil program.” This statement
is generalized to “planning” where it is more specific to “area contingency planning.” Therefore, a more
accurate characterization would be that, “funding for area contingency planning is not sufficient to meet
its broad based goals and coordination needs”

Finally, on page 11 of the report, under the heading, “Some Plans are Out-of-Date,” we would like to
address the statement that it could not be determined that recommendations that arose in the 1998
exercise (Prince William Sound and Western Gulf of Alaska) were implemented in plans prior to the
2010 Deepwater Horizon (DWH) spill and that “[i]f applied, knowledge gained from major spills and
these exercises can improve preparedness.” EPA continuously incorporates local issues and informs its
regional plan holders and responders of the response structure and procedures that result from lessons
learned from Spills of National Significance (SONS) exercises and real world spills in order to improve
preparedness; however, lessons learned in the 1998 exercise in AK represent a totally different scenario
(ice) than the real world DWH (warm weather/water) spill. Thus the majority of lessons learned from
the 1998 AK exercise would not translate to the DWH spill. Furthermore, to maximize existing regional
resources and to comply with the mandated area contingency planning requirements, regional area
planners are not mostly composed of OSCs. Although, the On-Scene Coordinators (OSCs) are the
personnel mandated by OPA 90 and the NCP to work on ACPs & Area Committees (ACs), other
personnel participate as well.




13-P-0152                                                                                            19
No.   Recommendation                      High-Level Intended          Estimated Completion by
                                          Corrective Action(s)         Quarter and FY
1     Issue guidance to regions on        OEM will clarify in the      4th Quarter of FY 2013
      working with their RRTs and         revisions already
      Area Committees (ACs) to use        underway for the ACP
      the most efficient method           Handbook and provide
      available to collect, maintain,     the updated ACP
      and deliver RCP/ACP required        Handbook (guidance) to
      elements outlined in the NCP,       regions.
      which may mean using
      technological tools in lieu of
      written plans.

2     Require regions to keep critical    2.1 OEM will inform          4th Quarter FY 2013
      planning information up to date     regional offices to avoid
      using the most effective method     unnecessary duplication
      available and avoid unnecessary     through the ACP
      duplication.                        Handbook (guidance).
                                          2.2 OSWER/OEM will           4th Quarter FY 2016, and
                                          issue guidance and work      continuing
                                          with the Regions on its
                                          timely implementation.
3     Have the Director of OEM work       The NRT will continue to     On-going
      through the office’s NRT            incorporate lessons
      capacity to incorporate lessons     learned from exercises
      learned from national exercises     and real world events into
      in the forthcoming NRT policy       its purview.
      on periodic contingency plan
      reviews and updates.
4     Assess the resources, including     Building on the existing     Recommendation from
      OSCs, necessary to develop and      workgroup process,           workgroup by end of 4th
      maintain contingency plans. Use     continue evaluation of       quarter FY2013.
      the results of this analysis to     OSC resources based on
      develop a workforce plan to         needs and responsibilities
      distribute contingency planning     of the regions to develop
      resources.                          the plan to redistribute
                                          regional OSC allocations.

Disagreements
OEM has noted above our concerns with some of the language and provided qualifiers to address the
fact that EPA is limited in its authority to require other agencies to update their critical planning
information.

Thank you for the opportunity to respond to your final findings paper. Should you have any questions
regarding this memo, please contact Dana Tulis, Deputy Director, Office of Emergency Management at
202-564-8600.

Attachment


13-P-0152                                                                                      20
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460
                                                                                            OFFICE OF


                                                                                         SOLID WASTE AND 

                                                                                       EMERGENCY RESPONSE




                                           February 8, 2013


 MEMORANDUM

    BJECT:     Follow-up Response to OIG draft report: ·'EPA Could Improve Conti ngency
               Planning for Oil and - rd us ubstance Emergency Response: Assignment No.
               0A-FYI2-0084

 FROM:          Mathy Stanislau
                Assistant Administ at

 TO:            Melis aM. Heist
                Assistant Inspector General fo r Audit

 We concur with the revised recommendation number 3 as stated below and provide our response
 to the recommendation.

 OIG Revised Recommendation
 Have the Director of OEM work through the olTice·s NRT capacity to de elop a process to
 regularly incorporate lessons learned from national exercises into contingency plan reviews and
 updates.

 0 WER Response

 The NRT and RRTs have existing procedures to encourage and ensure that lessons learned from
 responses and exercises are incorporated into contingency plan improvements. The NCP requires
 the RRTs to "...review response actions carried out during the preceding period, consider
 changes to the RCPs. and recommend changes to the ACPs." This process has carried over to
 experiences gained through large-scale exercises. In addition to the regular RRT meeti ngs, the
 annual NRT/RRT Co-Chair meeting has a standing agenda item to discus the prior year
 responses and exercises. lessons learned, and how those lessons will improve contingency plans.
 The next such national meeting is scheduled for April 2013. and this will be on the agenda. The
   RT will also ensure that thjs agenda item is on the agenda for all annual RT/RRT Co-Chairs
 meeting; the next such meeting will likely be planned for Spring 2014.
 Further, as one example/demonstration of a specific NRT guidance document that resulted from
 a lesson learned (in this case from the Deepwater Horizon oil spill response), OEM will fi nalize
 the National Response Team's Atypical Dispersant Guidance. This document has been drafted
 and it is currently under re iew by the NRT member agencies. The planned date of completion
 of this guidance is 5/31 /13.


13-P-0152                                                                                      21
13-P-0152   22
                                                                              Appendix D

                                   Distribution
Office of the Administrator 

Assistant Administrator for Solid Waste and Emergency Response 

Agency Follow-Up Official (the CFO) 

Agency Follow-Up Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Regional Administrator, Region 5 

Regional Administrator, Region 6 

Regional Administrator, Region 8 

Regional Administrator, Region 10 

Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response 

Audit Follow-Up Coordinator, Region 5 

Audit Follow-Up Coordinator, Region 6 

Audit Follow-Up Coordinator, Region 8 

Audit Follow-Up Coordinator, Region 10 





13-P-0152                                                                             23
